Jeffrey A. Lamken
MoloLamken LLP
600 New Hampshire Avenue, N.W.
Washington, D.C. 20037
T: 202.556.2010
F: 202.536.2001
jlamken@mololamken.com
www.mololamken.com

March 26, 2021
VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk, United States Supreme Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Ericsson Inc. v. TCL Communication Technology Holdings, Ltd.,
No. 20-1130

Dear Mr. Harris:
Pursuant to this Court’s order of March 19, 2020, petitioners in the above-captioned
case respectfully request that the Court delay distribution of the petition for a writ of
certiorari by one week, until April 7, 2021, and set it for consideration at the conference on
April 23, 2021. The petition is currently scheduled for distribution on March 31, 2021, for
consideration at the April 16 conference.
In addition to the heavy press of other matters, petitioners’ counsel are dealing with
logistical and other difficulties related to COVID-19, which has complicated their ability to
prepare and finalize a brief that will be most helpful to the Court. This one-week delay
would still permit the Court to consider the case at the conference following the original
conference and will not delay the case’s disposition.
Respondents’ counsel has informed us that his client takes no position on this
request.
Thank you very much for your time, attention, and assistance.
Sincerely yours,
/s/ Jeffrey A. Lamken
Jeffrey A. Lamken
cc:

All Counsel of Record
Service list attached

SERVICE LIST:
Lionel M. Lavenue
FINNEGAN, HENDERSON, FARABOW,
GARRETT & DUNNER, LLP
Two Freedom Square
Reston, VA 20190
(571) 203-2700
lionel.lavenue@finnegan.com
Counsel for Respondent

